<html>
<title> - THE FEDERAL GOVERNMENT'S ROLE IN WILDFIRE MANAGEMENT, THE IMPACT OF FIRES ON COMMUNITIES, AND POTENTIAL IMPROVEMENTS TO BE MADE IN FIRE OPERATIONS</title>
<body><pre>[Senate Hearing 114-331]
[From the U.S. Government Publishing Office]






                                                        S. Hrg. 114-331

  THE FEDERAL GOVERNMENT'S ROLE IN WILDFIRE MANAGEMENT, THE IMPACT OF 
  FIRES ON COMMUNITIES, AND POTENTIAL IMPROVEMENTS TO BE MADE IN FIRE 
                               OPERATIONS

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 5, 2015

                               __________


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                       Printed for the use of the
               Committee on Energy and Natural Resources

           Available via the World Wide Web: http://fdsys.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

95-275                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



















               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia
                    Karen K. Billups, Staff Director
                Patrick J. McCormick III, Chief Counsel
   Lucy Murfitt, Senior Counsel and Natural Resources Policy Director
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
        Bryan Petit, Democratic Senior Professional Staff Member
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman, and a U.S. Senator from Alaska...     1
Cantwell, Hon. Maria, Ranking Member, and a U.S. Senator from 
  Washington.....................................................     2

                               WITNESSES

Tidwell, Thomas, Chief, U.S. Forest Service, U.S. Department of 
  Agriculture....................................................    15
Pyne, Dr. Stephen, Regents' Professor, Distinguished 
  Sustainability Scholar, School of Life Sciences, Arizona State 
  University.....................................................    23
Hood, Dr. Sharon, Post-Doctoral Researcher, College of Forestry 
  and Conservation, University of Montana........................    28
Eisele, Robert, Watershed and Fire Analyst, County of San Diego, 
  California (Retired)...........................................    38
Hallin, Bruce, Director, Water Rights and Contracts, Salt River 
  Project........................................................    53

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Association of Fish and Wildlife Agencies
    Letter for the Record........................................   125
Cantwell, Hon. Maria
    Opening Statement............................................     2
    Calkin et al, Forest Ecosystems 2015 Review..................     4
Caplin, Michael
    Letter for the Record........................................   127
Eisele, Robert
    Opening Statement............................................    38
    Written Testimony............................................    40
    Responses to Questions for the Record........................   119
Hallin, Bruce
    Opening Statement............................................    53
    Written Testimony............................................    55
    Responses to Questions for the Record........................   123
Hood, Dr. Sharon
    Opening Statement............................................    28
    Written Testimony............................................    30
    Responses to Questions for the Record........................   115
Murkowski, Hon. Lisa
    Opening Statement............................................     1
Partner Caucus on Fire Suppression Funding Solutions
    Letter for the Record........................................   185
Placer County Water Agency
    Statement for the Record.....................................   190
Pyne, Dr. Stephen
    Opening Statement............................................    23
    Written Testimony............................................    25
    Responses to Questions for the Record........................   108
Tidwell, Thomas
    Opening Statement............................................    15
    Written Testimony............................................    17
    Responses to Questions from Senator Risch
      Chart entitled ``U.S. Forest Service Regions 1 and 4: 
      Projects in Designated Insect and Disease Areas in Idaho 
      thru FY 2019/20''..........................................    79
      Chart entitled ``Projects in Idaho Occurring within Section 
      602 Designated Landscapes FY 2015-2019''...................    82
    Responses to Questions for the Record........................    94
 
  THE FEDERAL GOVERNMENT'S ROLE IN WILDFIRE MANAGEMENT, THE IMPACT OF 
  FIRES ON COMMUNITIES, AND POTENTIAL IMPROVEMENTS TO BE MADE IN FIRE 
                               OPERATIONS

                              ----------                              


                          TUESDAY, MAY 5, 2015

                                        U.S. Senate
                  Committee on Energy and Natural Resources
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:07 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    The Chairman. Good morning. We will call to order the 
Energy Committee hearing this morning. Welcome everyone.
    We are discussing logistics here because we theoretically 
have a vote at 10:15. It is my intention to offer my opening 
statement and then turn to the Ranking Member for hers. If in 
fact they have called a vote at that point in time, I think 
what we will do is just take a quick break and go vote, so we 
can come back and hear the testimony from our witnesses this 
morning.
    Obviously this is a very important issue to all of us 
around the country. We are here to examine our wildfire 
management policies including the impacts of wildfire on 
communities and our current fire operations. Unfortunately 
today may be a day where we struggle to find a whole lot that 
is positive about all of this.
    Over the last 50 years we have seen a rapid escalation in 
the size, frequency and severity of wildfires. The most often 
cited causes are severe drought, a changing climate, hazardous 
fuel buildup due in part to decades of fire exclusion, insect 
and disease infestation and an explosion of non-native invasive 
species.
    These are big problems. They are daunting problems, and 
they are problems that are not easily going away.
    We have already seen the consequences unfold firsthand in 
my home state of Alaska. Last May we had the Funny River Fire 
just about this time actually, mid-May. It burned through the 
Kenai National Wildlife Refuge and spread smoke as far away as 
Fairbanks, more than 500 miles away.
    The fire burned nearly 200,000 acres, or 300 square miles, 
before it was finally extinguished. It was the second largest 
ever recorded on the Kenai Peninsula. It threatened Kasilof, 
Sterling and lower Skilak Lake forcing residents of those 
communities to evacuate. We are all thankful that there were no 
apparent fatalities.
    The Funny River Fire was likely started by human activity, 
but the area has also changed dramatically in the last 20 years 
due in part to mass spruce bark beetle kill. Grasses have 
replaced forests and those grasses are simply more susceptible 
to fire. More than half of the peninsula's total forested land, 
nearly a million acres, has been lost which is, of course, a 
worrisome sign for the future.
    Already this year the concern back home is that we will 
have an aggressive fire season. We have very low snowfall 
throughout the state, and it is dry. I was in Fairbanks this 
weekend, and I cannot recall a time on the first of May when 
not only the rivers are out but there is no snow pack anywhere.
    The same factors that we are seeing up north and in the 
peninsula that are increasing the size, frequency and severity 
of wildfires are also driving up wildfire suppression costs 
both in actual dollars and as a portion of the total budget of 
the Forest Service. Beyond that the expansion of the Wildland 
Urban Interface, the WUI, and fire operation strategies and 
tactics cannot be overlooked. According to a recent USDA 
Inspector General report, 50 to 95 percent of Forest Service 
suppression costs were attributable to the defense of private 
property, much of which is located in the Wildland Urban 
Interface.
    It is looking more and more like the Forest Service is 
morphing into an emergency fire service that throws everything 
that it has at every wildfire whether effective or not. Last 
year was a good example. The Forest Service spent $200 million 
more on suppression than it spent on average over the last ten 
years despite there being less than half the number of fires, 
less than half the number of acres burned and less than half 
the number of homes burned.
    We need to see a paradigm shift from fire control at all 
costs to actual fire management. It is my hope that we can 
implement a wildfire policy that responsibly funds wildfire 
suppression needs, ends the unsustainable practice of fire 
borrowing, helps Fire Wise our communities and makes the 
necessary investments in a full suite of fuel treatments.
    These will be my policy goals here in the Committee. It 
will not be easy to achieve them, but if we do I think we 
create fire resilient landscapes in which wildfires can occur 
without such devastating consequences for our lands, our 
communities and for our budgets.
    I look forward to the testimony of our witnesses here this 
morning. Thank you all.
    Senator Cantwell, we will now turn to you for your 
comments.

 STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Madam Chair, and thanks for 
calling this important hearing. I, too, want to thank the 
witnesses for joining us today.
    The fire season is upon us, and we are looking to you as 
experts to tell us how we can better prepare for this year's 
fire season.
    For some time now the Committee has heard time and again 
that our fires are getting noticeably worse. The extreme 
weather conditions, the amount of hazardous fuel in our 
forests, suboptimal management schemes and an increasing inter 
urban wildland interface, as the Chair was saying, are 
combining to produce more lethal fires. So the people in my 
state are all too familiar with this and want to know what we 
can do to better prepare.
    Throughout the country we saw fires, but, I think, the 
State of Washington was probably the most hard hit. I see Chief 
Tidwell nodding his head. We had more than twice the average in 
number of acres burned across the northwest. Last July 
Washington suffered the Carlton Complex Fire. We spent a lot of 
time talking to people in the community. This fire alone burned 
149,000 acres in a single day. It burned an average of five 
acres per second for 24 hours straight. So with the combination 
of extreme weather and this fire, over 353 homes were lost.
    Despite many efforts for people to coordinate resources, 
the people in those towns lacked the power of communication for 
weeks. Because of downed telephone lines, homeowners were not 
able to call to warn about the continued encroaching fires. 
Instead police had to drive around from town to town calling 
for evacuation from their vehicles using a megaphone.
    One thing that I will be calling for is better coordination 
between the Forest Service and FEMA on communication responses 
during these natural disasters. If they are becoming worse, we 
need better memorandums of understanding that require 
communications be set up right away so that our communities can 
continue to deal with these disasters.
    I know that we can get ahead of these issues, and as the 
Chair mentioned, we need more hazardous fuel reduction in the 
wildland urban interface. We need to figure out how to use 
resulting biomass to offset these costs. I know we are going to 
hear testimony about that today, and I look forward to it.
    I am also eager to hear from the witnesses on more 
prescribed fire burns. Also we need to address fresh ideas on 
how to fund Forest Service efforts to protect our communities. 
Senator Wyden, as we know, has introduced legislation on this. 
I am happy to be a co-sponsor, and I look forward to discussing 
that.
    The science is clearly telling us that wildfires are not 
behaving the same way they have in the past decades. The 
witnesses will talk more about why this is, but I want to make 
sure that we discuss today what our response is going to be to 
this evolving problem.
    Researchers from the Forest Service, just last week, 
published a major scientific report. The report made it clear 
that if we were ever going to get ahead of the problem, the 
Forest Service needs to respond to wildfires in a fundamentally 
different way.
    [The information referred to follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
   
    
    To quote the report: ``Our modern wildfire problems derive 
from a self-reinforcing cycle of counter-effective actions.''
    We cannot keep using the same tired approaches that we have 
for the last 100 years. We need to make sure we are focusing on 
getting different results.
    Common sense tells us that a response needs to be modified 
now that the problem is different. The Forest Service report 
does a great job of summing up what the Forest Service needs to 
do. The report says that altering the current trajectory will 
require a total system transformation. It bluntly states that 
maintaining the status quo will actually increase wildland 
fires, increase the losses we suffer from wildfires, and 
significantly affect the Forest Service's ability to meet its 
core mission.
    So we need new solutions. I am certainly going to work with 
the Chair and my colleagues here on the Committee over the next 
few months to find some of those solutions. I see four areas 
ripe for us to work on.
    First, we need to do what we can to reduce the probability 
of catastrophic fires. We need to see at least double the 
amount of hazardous fuel treatments and double the amount of 
prescribed fire.
    Second, fighting large wildland fires is becoming very 
expensive. Since 2000 the Federal Government has spent nearly 
$24 billion just fighting the large wildfires. We need to 
ensure that Federal agencies have the money necessary to 
protect our communities, and we need to treat large wildfires 
differently in our budget.
    Third, we need to make sure that spending and the 
management on the ground is being done to ensure 
accountability. We have seen questions about spending practices 
in the media, and we need to make sure that we are 
incentivizing the right kind of cost savings in the budget.
    Finally, but most importantly, as I mentioned earlier, the 
assistance communities receive after the wildfire has started 
needs to be different. The assistance needs to show up quicker, 
and the assistance needs to be tailored to the issues that are 
being raised.
    The Federal Government is responding to a new type of 
disaster where these events are blowing up in greater degree 
and reaching communities with unbelievable lightning speed. We 
need to have more proactive, upfront coordination with our 
Federal agencies--the Forest Service and FEMA, for example--in 
delivering real time communications and making sure that the 
resources, and I know the Chief will address this, are actually 
on the ground.
    The fire season forecast came out last week, and it's 
particularly troubling for our state. I hope the Forest Service 
is ready to help, and I hope FEMA will work to stage things 
like generators and assistance equipment closer to these areas 
so that they can respond more quickly.
    Again, Madam Chair, thank you so much for this hearing. I 
look forward to the witnesses, and I look forward to working 
with our Committee to try to institute some new approaches.
    The Chairman. Thank you, Senator Cantwell.
    Let's go ahead and get started with our witnesses. 
Depending on what happens with the vote we may just keep 
powering through or we may take a pause in the hearing.
    I would like to welcome all of our witnesses before the 
Committee, particularly you, Chief Tidwell. I appreciate your 
leadership at the U.S. Forest Service. Next to Chief Tidwell we 
have Dr. Stephen Pyne who is a Regents' Professor at the School 
of Life Sciences at Arizona State University. Dr. Sharon Hood 
is with us this morning, and she is a post-doctoral researcher 
at the College of Forestry and Conservation at the University 
of Montana. We also have Mr. Bob Eisele. Am I pronouncing that 
correct?
    Mr. Eisele. Eisele.
    The Chairman. Eisele, okay. Mr. Eisele is the Watershed and 
Fire Analyst at the County of San Diego, California. I 
understand you are retired, so it is great to have you with us. 
Finally, we have Mr. Bruce Hallin, who is the Director of Water 
Rights and Contracts at the Salt River Project.
    Chief, if we can begin with you. To each of the witnesses, 
we would ask that you try to limit your testimony to five 
minutes. Your full statement will be included as part of the 
record, but we look forward to your comments and the 
opportunity to ask questions afterwards.
    Chief, good morning.

 STATEMENT OF THOMAS TIDWELL, CHIEF, U.S. FOREST SERVICE, U.S. 
                   DEPARTMENT OF AGRICULTURE

    Mr. Tidwell. Good morning, Madam Chair, Ranking Member, 
members of the Committee. Thank you for giving us the 
opportunity to be here and especially with the other panel 
members today to be able to talk about not only our upcoming 
fire season but the things that we're currently doing and the 
things that we need to continue to do to address this issue.
    As you both have already shared, the predictions for this 
coming fire season are similar to what we had last year with 
definitely a much more, more than an active fire season, 
primarily out in the West. And as the summer develops that's 
going to just continue to expand up to the northwest and then 
over into parts of Utah, Idaho and even into Montana.
    You know, that being said, I can't stress enough that the 
fire seasons we're seeing today, these are the normal fire 
seasons. And so we can look at it and say, yes, they're more 
active than they were a decade ago, but it's important for us 
to understand that today this is the fire seasons that we're 
going to continue to have.
    Once again, we have the resources. We made sure that we're 
going to have an adequate number of large air tankers to 
respond to these fires. The helicopters that we have, we 
already have 100 for our exclusive use and we can bring up 
another 200 helicopters if we need them. We'll have our fire 
fighters, our type one crews, over 900 engines just for the 
Forest Service. And then as always we have the MAFFs airplanes 
from the Air National Guard and the Air Force Reserve that are 
ready to come on when we hit those surge times of the year.
    We are making a difference with the field treatments. When 
I look at the past, the millions of acres that we've been 
treating and the combination of managing a natural fire in the 
back country using prescribed fire and then our fuels 
treatments, primarily in the wildland urban interface, we are 
making a difference.
    This year we plan to treat another 2.5 million acres of 
hazardous fuels in FY'15, and our FY'16 budget is calling for 
that same level. And every year and I can point back to the 
Slide Fire from just last year where these fuel treatments are 
making a significant difference to allow our fire fighters to 
more safely be able to suppress these fires. It reduces the 
severity, has less impact on the watershed and less impact on 
our communities.
    Our challenge remains to be able to find more ways so that 
we can continue to increase the pace and scale of this work.
    I want to thank the Committee for your support for our 
budget this year with that considerable increase in hazardous 
fuels funding. If we can maintain that going forward I think it 
will allow us to continue to increase this pace and scale along 
with the new authorities that we have with the Farm bill. As we 
move forward to being able to use that work, to be able to work 
closer and increase our coordination with the states and other 
partners to be able to get additional work accomplished.
    The other thing I need to stress and it was pointed out 
already, the wildland urban interface. Not only are our fire 
seasons longer, hotter and drier, they're another 60 to 80 days 
longer than what they were just 15 years ago. We have over 50 
million acres of wildland urban interface that we have to deal 
with.
    And Madam Chair, as you pointed out in your statement, 
often the first thing we have to do with every fire is take the 
actions to be able to protect that community before we can even 
take on really suppressing these large wildfires.
    Now, we continue to suppress 98 percent of the fires that 
we take initial attack on. That doesn't include the ones that 
we manage in the back country for the benefits, so I need to 
stress that. But even with 98 percent there's that one to two 
percent that escape. They're the ones that we see on the news. 
The ones that create the large costs. So again, I appreciate 
the support from members of this Committee to find a solution 
to deal with the cost of fire suppression.
    Once again this year we're predicting there's a 90 percent 
chance that we will not have enough money. We will have to look 
at transferring funds. It is really past time. I know some of 
you are tired of listening to me talk about this, but it's 
really past time for us to find a solution and to be able to 
move on and to stop this disruptive practice of shutting down 
operations in the fall to be able to transfer money.
    I think there is no question that one percent, this concept 
of one percent of our fires, should be considered natural 
disasters. And again last year the ten largest fires, the ten 
most costly fires, equaled about over $320 million which really 
tracks with what we've been talking about, one percent, 30 
percent of the cost.
    So thank you again for having the opportunity to be here, 
and thank you again for the support you're providing us, not 
only to increase the work we're getting done, but also to find 
a solution to dealing with the cost of fire suppression.
    Thank you.
    [The prepared statement of Mr. Tidwell follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    The Chairman. Thank you, Chief. I think if there is one 
thing that we would agree on as members of this Committee is 
that we have got to figure out a way to stop the fire 
borrowing, because as we talk about all of the other things 
that go on within the Forest Service mission it comes back to 
the fact that you do not have the funds if you are using all of 
your budget to deal with these catastrophic fires.
    I think what I would like to do in deference to the other 
members of the panel so that we can all hear your important 
testimony is just take a quick, three minute break. We are 
going to race fast to go vote and come back.
    Senator Cantwell. You are fast.
    The Chairman. A minute and half there and back.
    We stand adjourned for three minutes.
    [RECESS]
    The Chairman. We will come back to order. That is three 
minutes in Senate time. [Laughter.] We apologize for that 
break, but again, I think there are enough members here who 
wanted to hear the testimony from all the witnesses and as a 
courtesy to you we have made you hold over for a little bit 
longer.
    Dr. Pyne, why don't we turn to you for your comments this 
morning? Again, thank you for your indulgence on time.

      STATEMENT OF DR. STEPHEN PYNE, REGENTS' PROFESSOR, 
DISTINGUISHED SUSTAINABILITY SCHOLAR, SCHOOL OF LIFE SCIENCES, 
                    ARIZONA STATE UNIVERSITY

    Dr. Pyne. Well, good morning and thank you for the 
opportunity to speak.
    After the great fires of 1910 we spent 50 years trying to 
remove fire from the land. Call it a strategy of resistance. It 
sought to eliminate threats before they could become serious. 
That doctrine failed because it excluded good fires as well as 
bad ones.
    We then tried to put good fire back in, and called this a 
strategy of restoration. Well, this strategy has now run its 
own 50 year course and the prospects and problems of its 
foundational doctrine, fire by prescription, are better 
understood.
    Which leads to a consideration of what might the next 50 
years hold. A strategy seems to be congealing in the West that 
we might label, resilience, that seems to make the best of the 
hand that we are being dealt.
    So let me consider these strategies in turn.
    Resistance. There remains an old guard who would like to 
return to the former order, and there are more progressive 
thinkers who want to upgrade that tradition into an all hazard, 
emergency service model, effectively urban fire departments in 
the woods or in a national sense, a kind of Coast Guard for the 
interior. Well, this makes sense if your primary land use is 
urban or ex urban, but it's expensive and it has not shown it 
can manage fires. If it retains the strengths of fire 
suppression it also magnifies suppression's weaknesses.
    Restoration. Restoration too, has upgraded its mission from 
the simple hope that prescribed fire might substitute for 
wildfires. It now embraces complex collaborations, supplements 
prescribed burning with other treatments and tries to operate 
on the scale of landscapes but determination endures, however, 
to get ahead of the problem. Yet the vision has proved costly, 
not only in money but in political and social capital. There is 
little reason to believe that the country will muster the will 
to rehabilitate at the rate or the scale required the tens of 
millions of acres believed out of whack.
    Resilience. In the West a strategy is emerging that accepts 
that we are unlikely to get ahead of the problems coming at us. 
Instead it allows for the management of wildland fires to 
shift, where feasible, from attempts at direct control to more 
indirect reliance on confining and containing outbreaks. Of 
course there are some fires that simply bolt away from the 
moment of ignition and there are some that threaten people or 
critical sites right from the onset, but many fires offer 
opportunities to back off and burn out. These are not let burns 
rather fire officers concentrate their efforts at point 
protection where assets are most valuable. Elsewhere they will 
try to pick places, draw boxes, which they hold with minimum 
expenses, risks and damages.
    While this strategy is compatible with Federal policy and 
in many respects moves in directions long urged by critics, 
though it can look like a mash up and the outcomes will be 
mixed because the fires are patchy, some patches will burn more 
severely than we would like. Some patches may hardly burn at 
all, but the rest will likely burn within a range of tolerance. 
Such burn outs may well be the future of prescribed fire in the 
West.
    So without wishing to push an analogy too closely, we might 
liken the resistance strategy to a rock, the restoration 
strategy to scissors and the resilience strategy to paper. At 
any given time and place one trumps another and is in turn, 
trumped. We need all three. We need rocks around our prized 
assets and communities when they are threatened by going fires. 
We need scissors to buffer against bad burns and nudge toward 
good ones, and we need paper because the ideal can be the enemy 
of the good and a mixed strategy that includes boxing and 
burning may be the best we can hope for.
    Thank you.
    [The prepared statement of Dr. Pyne follows:]
    
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    
    
    The Chairman. Thank you, Dr. Pyne.
    Dr. Hood, welcome.

STATEMENT OF DR. SHARON HOOD, POST-DOCTORAL RESEARCHER, COLLEGE 
      OF FORESTRY AND CONSERVATION, UNIVERSITY OF MONTANA

    Dr. Hood. Good morning, Chairman Murkowski, Ranking Member 
Cantwell and members of the Committee. Thank you for inviting 
me here today.
    My name is Sharon Hood. I'm a post-doctoral researcher at 
the University of Montana. Previously I worked as a U.S. Forest 
Service ecologist prior to earning my Ph.D. in organismal 
biology and ecology at the University of Montana in 2014.
    Fire and native bark beetles have huge impacts on conifer 
forests across our country. Today my testimony focuses on my 
research showing that fire and thinning can increase Ponderosa 
Pine resistance to Mountain Pine Beetle, but also that thinning 
is not a substitute for fire.
    Ponderosa Pine has adapted to survive frequent, low 
severity fire, a type of fire that burns through the forest 
understory, but generally causes little mortality to larger 
trees; however, lack of fire since the late 1800's has 
increased tree density and change species composition in many 
areas. We continue to actively suppress the majority of 
wildfires today; however, there is recent acknowledgement such 
as the 2014 National Action Plan for the National Cohesive 
Wildland Fire Management Strategy that we must allow more fires 
to burn to promote healthy forests, resilient to wildfire, 
insects, disease and drought.
    To achieve the goal of allowing more fires to burn we must 
accept the critical role of fire as a natural ecological 
process. My research supports the need for frequent, low 
severity fire in Ponderosa Pine forest in three ways.
    One, low severity fire increases resin ducts. These ducts 
are used by trees to make resin, or pitch, that helps resist 
bark beetle attacks and trees with more ducts are more likely 
to survive attack.
    Two, when frequent low severity fires were moved from 
Ponderosa Pine forests resin duct defenses decline over time.
    And three, low severity fire acts as a natural thinning 
agent to reduce forest density. This also promotes an increase 
in resin duct defenses that increases resistance to Mountain 
Pine Beetle.
    I examined the effects of thinning and fire on resistance 
to a Mountain Pine Beetle outbreak at a long term study site in 
Western Montana. These treatments were originally designed to 
study how to effectively restore Ponderosa Pine forest and 
increase resilience to wildfire. They were implemented five 
years before the outbreak began. Resin ducts increased after 
thinning with and without burning and remained higher than the 
control and burn only treatments throughout the length of the 
study. Mortality for Mountain Pine Beetle differed markedly 
between treatments. In the control 50 percent of the Ponderosa 
Pine was killed in an outbreak compared to 20 percent in the 
burn only and almost no mortality in the thin only and thin 
burn combination treatments.
    High levels of Douglas Fir in both the control and burn 
only treatments due to over 100 years of fire exclusion, 
coupled with a high pine mortality from bark beetles has 
reduced stand resilience beyond the ability to return to a 
Ponderosa Pine dominated system and the absence of further 
disturbance or management.
    My results applied a dry pine, Ponderosa Pine, forest in 
the inland Northwest. A forest type where there is strong, 
scientific support that frequent low and mixed severity fires 
were once common. Further research is needed to determine if 
fire increases tree defenses in other fire dependent, pine 
forest types throughout the U.S. I found thinning with and 
without prescribed fire increased resistance to a Mountain Pine 
Beetle outbreak, greatly reducing tree mortality.
    In the long term, however, thinning with prescribed fire 
created the most resilient forest by stimulating tree defenses 
and through the beneficial effects of killing understory 
vegetation. These and other critical ecological effects of fire 
cannot be replicated by thinning alone. While thinning is a 
very useful and oftentimes necessary restoration and management 
tool, fire is crucial for long term maintenance of low to mid 
elevation fire of Ponderosa Pine forests through both impacts 
of forest structure and composition and by stimulating defenses 
that can increase tree survival from bark beetle attacks.
    There is no one size fits all approach to restoring fire 
dependent forests. Proactive restoration treatments should aim 
to increase forest resilience to a multitude of stressors and 
foster conditions that allow wildfires to burn under more 
natural intensities.
    While my study is just one example, these findings are 
supported by other scientific literature showing the critical 
role of fire in creating resilient Ponderosa Pine forest.
    Thank you again for the opportunity to testify here today.
    [The prepared statement of Dr. Hood follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]  
    
        
    The Chairman. Thank you, Dr. Hood.
    Mr. Eisele, welcome.

STATEMENT OF ROBERT EISELE, WATERSHED AND FIRE ANALYST, COUNTY 
               OF SAN DIEGO, CALIFORNIA (RETIRED)

    Mr. Eisele. Good morning, Senator Murkowski, Senator 
Cantwell and the members of the Committee. It's an honor for me 
to be here to share my experience with you today.
    I've been involved with fire my entire life. I started with 
the volunteer fire fighter to prescribed burner for the County 
of San Diego, fire behavior analyst on a Federal incident 
management team for 15 years, and I like to think of myself as 
a student of fire.
    I've learned in Southern California that we will always 
have extreme fire weather. We will always have a drought, but 
there will always be ignitions and ignitions are plentiful and 
they are random so the driver of the entire system is fuel. A 
young fuel does not burn very well and doesn't burn very fast 
even under extreme conditions. Old fuel conversely burns 
extremely hot and extremely well, extremely fast.
    For example, the origin and the age of the fuel of origin, 
at origin of fires in Southern San Diego County in the past, 
since 1950, the average age of the fuel where the fires, the 
big fires start, was 71 years. And we don't find any fires 
starting in fuels less than 20 years old go to become major 
fires.
    The fire problem in San Diego County has gotten worse and 
it's kind of leading the nation. Again, California is not a 
good spot to be in the lead, but what we've seen in California 
in the past 50 years is becoming the norm in the Western United 
States.
    So I see two main issues with the fire. Fire and cost.
    We recognize that the fire problem is the fuels. We're now 
treating close to two percent of the hazardous fuels which is a 
50 year rotation cycle which means that as we're doing a great 
job we're not even getting close. So we need to be doubling at 
least our fuel treatment and it has to be mechanical and fire 
because it is, the forests, have overgrown to the point that 
the fire will not thin them. It has to be thinned and then 
maintain thin with the fire.
    We need projects that are picked by Forest Service multi-
disciplinary teams of people not just fire, but forest health 
people and sociologists and risk assessments to pick the ones 
that are going to get us the big bang for the buck because we 
don't have enough money to do it all. We need to spend our 
dollars wisely.
    We need to look at NEPA. San Bernardino National Forest is 
on its fourth year of a one-year NEPA proposal or EIS for 
20,000 acre, general EIS document. People are gaming the system 
on NEPA, and NEPA is a good idea. We need to be doing it, but 
we're not building a shopping center or freeways. We're 
mitigating the damage to the forests.
    The budget process, I'd point out that there is a FEMA does 
a plan for state and local and tribal governments when the 
fires meet a certain criteria, FEMA picks up 75 percent of the 
costs. It seems like they could do that for the Federal 
agencies also or somewhat similar.
    We can reduce the cost of fires by managing them better, 
and I think there's a technological asset here. We need to be 
able to have the guy on the ground with a laptop computer that 
can predict where the fire is going and then measure the 
results of what they're doing based on that.
    We need to know where the fire is. It's hard to believe 
that we don't know where the fire is on some of these fires 
because we can't see them through the smoke and we can't map 
them. And they need to map them in the first day, not three 
days later.
    So that kind of technology is, I believe, it's going to go 
a long way to managing things like managing the fire and then 
managing the air assets. We can model where our aircraft are 
good and effective and where they're not so good, and we can 
then let the fire managers make those kinds of decisions based 
on sound science.
    A safety issue with our fire fighters is every so often we 
wind up having a disaster like Yarnell Hill. We need to know 
where the fire is. We need to know where the fire fighters are, 
and the people that are supervising those fire fighters need to 
have a map in their hand that shows them where everybody is on 
the ground. That's totally doable. It would have to be 
satellite-based, but just knowing where they are doesn't help. 
It's the guy in charge of them that needs to know where they 
are.
    So I put a bunch of other suggestions inside my testimony, 
and I appreciate the opportunity to comment today.
    [The prepared statement of Mr. Eisele follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
  
    
    The Chairman. Thank you, Mr. Eisele.
    Last we will go to Mr. Hallin, welcome to the Committee.

     STATEMENT OF BRUCE HALLIN, DIRECTOR, WATER RIGHTS AND 
                 CONTRACTS, SALT RIVER PROJECT

    Mr. Hallin. Chairman Murkowski, Ranking Member Cantwell and 
members of the Committee, thank you for the opportunity to 
testify before you today. My name is Bruce Hallin, and I'm the 
Director of Water Rights and Contracts for Salt River Project, 
or SRP.
    For over 100 years the Salt River Project has provided a 
reliable water supply to metropolitan Phoenix. To fulfill this 
responsibility SRP operates seven dams, 1,300 miles of canals 
and numerous ground water wells. Importantly we're also 
dependent on the health of a 13,000 square mile watershed to 
provide a renewable water supply and protecting these 
headwaters has been a priority of SRP since its founding.
    Around the turn of the 20th century watershed protection 
efforts focused on setting aside lands in the Federal forest 
system to ensure development in timber harvest were conducted 
in a way that preserved a sustainable water supply for Arizona.
    Today, the unhealthy state of these national forests are 
causing catastrophic wildfires that threaten the sustainability 
and quality of drinking water for millions in Arizona. This 
situation is not unique to Arizona. We are working closely with 
the National Water Resources Association and others who are 
facing similar threats to their headwaters.
    Catastrophic fires have severe and long term impacts to 
watersheds which are felt far beyond the area directly impacted 
by the fire. Unlike the low intensity fires seen in healthy 
forests, the aftermath from the severe fires we are 
experiencing as a result of the unnatural forest conditions 
increase sediment loads and debris that reduce storage capacity 
at our reservoirs and affect the predictability of runoff.
    Water quality is deteriorating as a result of fire activity 
on our watershed. Increased organics and sediment in the SRP 
water supply have led to increased capital and operational 
costs at city water treatment plants. These treatment 
facilities have been upgraded to handle the increased levels at 
a cost of hundreds of millions of dollars.
    We know from science and experience exactly what needs to 
be done to mitigate these impacts. We know that we need to act 
quickly to thin overcrowded and unhealthy forests. We know we 
need to reestablish a forest products industry to carry out 
treatments and create an economy around forest restoration, and 
we know we need public policy at all levels of government to 
facilitate and invest in forest restoration.
    SRP is actively involved in efforts to expedite forest 
restoration by committing resources in all of these areas. Few 
are engagement in public/private partnerships. For example, we 
have started the Northern Arizona Forest Fund in partnership 
with the National Forest Foundation to raise funds and invest 
in forest restoration projects that protect our watershed. We 
are also involved in a project with the Forest Service, Bureau 
of Reclamation, City of Payson and the National Forest 
Foundation to treat the 64,000 acre watershed that drains into 
the CC Cragin Reservoir.
    The projects that we are currently involved with highlight 
the need to improve Federal policy to more efficiently make 
progress in restoring our forests and protecting our 
watersheds. Specifically there is a need to improve both fire 
suppression budgeting and the planning and compliance process 
for restoration projects.
    The CC Cragin Project I mentioned is a perfect example of 
why we need to address both of these issues at the same time. 
We greatly appreciate the priority the Forest Service and the 
Department of Interior has placed on this project; however, 
despite the significant funding and staff dedicated to 
undertake the project, it is expected to take at least two, if 
not three, years before any thinning can be done on the ground.
    This is too long to simply hope that a fire doesn't destroy 
the Cragin Watershed. We must find a way to move forward more 
quickly on critical projects like this by utilizing the 
significant data and knowledge that already exists within the 
Forest Service.
    My written testimony includes some additional policy 
suggestions but I wanted to highlight one issue related to fire 
borrowing. As the Committee continues to address fire 
suppression budgets it is also important that the provisions 
include a dedicated and secure funding stream for forest 
restoration in order to promote the certainty needed to 
encourage private sector investment.
    The greatest risk to our forests is catastrophic wildfire, 
and we need to rebalance the requirements placed on these types 
of projects to reflect that reality. The problems, the 
solutions and the consequences of inaction are clear. I look 
forward to working together with this Committee on our shared 
goals of protecting the forests and watersheds our communities 
rely on and enjoy.
    Thank you, again, and I look forward to answering any 
questions you may have.
    [The prepared statement of Mr. Hallin follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
    The Chairman. Thank you, Mr. Hallin. Thank you to all of 
our witnesses here this morning. As I mentioned after the 
Chief's testimony, I think we would all agree we have to figure 
out how to stop this fire borrowing because when we are talking 
about how we deal with treatment, how we work to mitigate the 
risk here, it takes dollars. When you spend all of your dollars 
on suppression, it does not leave much room for further 
treatments.
    The concern here is that these suppression costs are out of 
control. Chief, I know you are very supportive of a wildfire 
cap adjustment, but from what we have heard from just about 
everybody here this morning, it is not necessarily the silver 
bullet to address the skyrocketing costs of wildfire 
suppression spending. How we deal with that is something that I 
would like to focus on this morning.
    Both you, Mr. Hallin, and Mr. Eisele, to a certain extent, 
have described the hazardous fuel reduction projects that are 
critical to protecting whether it is the watersheds that you 
have noted, the Cragin Watershed or other areas there. The 
comment that you made, Mr. Hallin, that we know what it is that 
we need to do and yet we can't get to that point, and it takes 
two to possibly three years to implement these projects. We 
talk a lot about analysis/paralysis around here where we have 
endless process. Again, we hope that there is not going to be a 
lightning strike that is going to bring about disaster. Chief, 
can you speak to this? I mean, are we in a situation where we 
are more worried about checking the boxes in making sure that 
we have gone through a critical process or are we acting with a 
level of urgency that I think you have heard from everybody 
here at this table with regards to these critical projects that 
will help us from the preventive perspective? I think we would 
agree that if we can prevent these in the first place we can 
get a better handle on these suppression costs. What is our 
problem with the process that seems to be slowing things up 
when we are dealing with treatment of hazardous fuels?
    Mr. Tidwell. Madam Chair, one of the issues we dealt with 
in the past is needing to do a large enough project where it 
actually makes a difference, and that's where we've moved to 
taking a more landscape-scale approach.
    In the past the Healthy Forest Restoration Act, which you 
passed a few years ago which gave us the streamlined NEPA 
process, was a very good tool. The problem with that is that it 
was limited to certain criteria. And so when we looked at 
larger landscapes we could use that authority on a piece of the 
project but it wouldn't apply to these tens of thousands of 
acres.
    Now with the Farm bill authorities with insect and disease 
it gives us some more flexibility to be able to use that 
approach looking at just one action alternative and a no action 
so we can streamline the process.
    But the key is----
    The Chairman. Let me ask you about that if I----
    Mr. Tidwell. To look at these larger landscapes.
    The Chairman. Let me ask you about that because when we 
were going to vote Senator Stabenow, who is not able to return 
back to the Committee, raised this issue with me saying that in 
the Farm bill there were additional authorities that were given 
to do just exactly as you have said. Are these additional 
authorities being utilized at this point and are they making a 
difference?
    Mr. Tidwell. We're beginning to utilize, especially the CE 
authority in the Farm bill. We have projects that are going 
forward with that. And you'll see, especially in FY'16, many of 
our projects we'll be implementing will be using these new 
authorities. But we often take a year of planning and going 
through NEPA before we implement, so you'll see those projects 
being implemented in '16.
    The Chairman. I think that has been the concern here is 
that we have got this process that we have to go through. Is 
this what you were speaking to Mr. Eisele and Mr. Hallin? Is 
there any way to expedite that, in your view? You know what you 
have to do.
    Mr. Hallin. One of the difficulties that we've had with the 
Cragin Watershed, we do appreciate the opportunity to utilize 
the Healthy Forest Restoration Act as an alternative to full 
scale restoration. We would prefer full scale restoration, but 
at this point we decided to move forward with the Healthy 
Restoration Act.
    The Forest Service personnel have over 25 years in 
understanding the types of fires that have occurred on this 
watershed where the endangered species are located and the 
extent of the watershed itself on those areas that are highly 
susceptible to wildfire risk. The problem is they have to go 
through an entire EIS process that essentially is designed, 
from what I gather in watching staff, is designed to 
essentially avoid litigation.
    We know what the issue is, we know that these forests need 
to be thinned, we know that the greatest threat to the species 
that the EIS is designed to protect is catastrophic wildfire, 
but unfortunately we have to go the same process another two 
years before we can ultimately get in there and thin those 
forests.
    The Chairman. Yes, we hear this story so often that what we 
are attempting to do is to avoid litigation and in the meantime 
lightning strikes and we are paying the cost.
    Senator Cantwell?
    Senator Cantwell. Thank you, Madam Chair, and again, thank 
you to the witnesses.
    Dr. Hood, thank you for your testimony, and thank you for 
your work in this area. It is very important.
    Your key point was about the fact that thinning and 
prescribed fire created the most long term resilient forest to 
future disturbances, so I want to drill down on that because I 
think that is a culmination of your conclusions which is very 
important in looking at all these options.
    Chief Tidwell, your testimony stated that the Forest 
Service has identified about 12 million acres that really need 
hazardous fuel reduction treatment, but the budget year after 
year only requests about $300 million for those treatments. Is 
that sufficient funding for those highest priority areas and 
what do we need to do to get a more realistic number? Sorry to 
put all this out there, but that is the best way to get all the 
answers we need and some of them you can give me in writing 
too.
    Secondly, regarding this whole issue of, you know, do we 
have the best communication that we need for communities during 
these fires? Do we need more coordination with FEMA? Should 
FEMA be a permanent part of the incident command team? What can 
we do? Do we need to get an MOU, memorandum of understanding, 
between you and FEMA to ensure you can communicate while with 
the community responsibilities--you are busy fighting fires? If 
the communication infrastructure does not exist anymore, then 
how are we making sure that we do not have to wait two weeks to 
communicate about the ongoing crisis, given the level of huge 
fire increases that we are seeing?
    Third, does your agency have a permanent agreement with the 
FAA on an application with them on drones? I would like to see 
this not be an issue where every state that has a fire and then 
wants to know whether the drones can be deployed to get a 
better understanding of the fire or mapping or what have you. I 
would just like it to be a natural course between the Forest 
Service so that we do not have delays, because I think they are 
providing us very, very vital information about these fires.
    Mr. Tidwell. I'll start with the last question there.
    We're working very closely with FAA to be able to use the 
unmanned aircraft to be able to collect the information, and we 
have a team that's gone, put in place this year to be able to 
explore.
    The challenge for us is to be able to understand what 
information we need and when we need it so that because the 
potential there is there's so much data that's available, but 
we've got to be able to prioritize it so we can quickly be able 
to use that. So we're going to be moving forward this year. 
We'll be working, not only with FAA, but also with the states 
to work very closely to be able to start to use this 
information, probably simply mapping is one of the simple and 
looking for hot spots, especially outside the line where we've 
had success in the past.
    Senator Cantwell. But you'll do a permanent application so 
you won't have to keep going back and forth all the time?
    Mr. Tidwell. Well, we're going to be working in that 
direction so that it's automatic.
    Senator Cantwell. Thank you.
    Mr. Tidwell. And that under these conditions we can use the 
aircraft.
    Your question about what happened with the aftermath there 
or even during the Carlton Fire--it really stresses how we need 
to do a better job with our preplanning. We do a good job and 
work with communities so they're ready for the fire, but based 
on that experience we need to do a better job to also deal with 
things like communications. The things that we need to make 
sure communities have an emergency communication system that's 
in place so that when that happens that those, whatever it 
takes, that we're going to be able to maintain communications.
    From when I was up there visiting with the homeowners, 
especially, one of the things they stress is that they didn't 
know. They didn't know what was going on. They had no way to 
contact anyone, I can't imagine that level of stress that would 
come from that situation, so it's one of the things that we've 
learned. We need to get that in place.
    We need to actually do a better job than we have been with 
utility companies. They're always great to step right in and 
ready to roll, but we need to include them also in our 
preplanning meetings. So that when the next Carlton happens, 
yes, we'll have the fire to deal with, but at the same time we 
can provide a higher and better level of support to those 
communities to be able to eliminate some of the impact and get 
their services restored faster.
    Senator Cantwell. Does FEMA need to be a permanent part of 
the equation?
    Mr. Tidwell. Yes, FEMA definitely needs to be working with 
us. They are a part of the solution, and we'll continue to work 
with them.
    Senator Cantwell. I just want to point out for my 
colleagues, because this is after 149,000 acres burned, the 
Winthrop/Twist Valley area was without communication and yet 
fires were still all around them.
    Mr. Tidwell. Yes.
    Senator Cantwell. Without any communication because the 
broadband burned up, no one had any way to communicate with 
people other than, as I said, trying to go through the town. I 
think this and Oso taught me that we need----
    Mr. Tidwell. Yes.
    Senator Cantwell. Communities need to be able to get a 
mobile, broadband unit more easily deployed as opposed to 
waiting for two or three weeks for the state to apply for a 
FEMA declaration.
    If this is all about who is going to pay for this in the 
end and we are hesitating, our constituents are without the 
vital communications in a disaster. If this is what we are 
seeing because of the impacts of these drastic events because 
of weather, I think we need to look at these events and say we 
need better communication response in the aftermath and to 
figure out how to do that for these communities.
    So thank you, Madam Chair.
    The Chairman. Thank you.
    Senator Daines?
    Senator Daines. Thank you, Madam Chair.
    Chief Tidwell, let me first start by saying I share your 
support for a solution to the wildfire funding challenge. I 
have spent a lot of time traveling across Montana hearing from 
conservation groups, sportsmen groups, the timber industry. I 
think we have a great, broad spectrum of agreement that 
something has to change in the way wildfires are funded or 
wildfire fighting is funded, and I am hoping that we resolve it 
this year. I am going to do everything I can to make that 
happen.
    Your office provided me information that indicated over 
seven million Federal acres in Montana are at high or very high 
risk of wildfire, most of which are managed by the Forest 
Service. That is approximately one in four Federally-controlled 
acres in Montana. I was further told that nearly two million of 
these acres are most in need of treatment because they are near 
populated communities or watersheds.
    Unfortunately I was informed that the Forest Service did 
hazardous fuels treatment on only about 52,000 of those acres 
in the last Fiscal Year out of two million that are needed. I 
have no doubt that the work that was done there was important, 
but the current pace of treatment is simply not acceptable. 
Certainly our communities, our watersheds, our wildlife 
habitat, our access to recreation, all of these critical 
Montana treasures are at real risk to wildfire.
    More than ten years ago Congress provided enhanced 
authorities to the Forest Service to reduce hazardous fuels 
through the Healthy Forest Restoration Act (HFRA). You 
mentioned that, but as noted these authorities are clearly not 
adequate and the HFRA clearly has shortfalls. What, in your 
view, are the barriers to getting more done there?
    Mr. Tidwell. Well as I shared earlier the Healthy Forest 
Restoration Act continues to be a good authority for us, but it 
is limited to certain areas based on the criteria that's 
required and that is having community wildfire protection 
plans. You need to have a hazardous fuel component. And we 
really need to be looking at the entire landscapes, the full 
restoration work, not only the hazardous fuels work next to the 
community, but what we need to do in the entire watershed. And 
as we pointed out from, you know, some of the witnesses that is 
a much better approach.
    And so we look at Healthy Forest Restoration Act and now 
with the new Farm bill authorities that allow us to be able to 
use the similar type of NEPA approach, but also address where 
it has insect and disease. By putting those together it's going 
to allow us to take more of a total landscape approach to be 
able to look at everything that needs to be done on that 
landscape and to be able to look at not thousands of acres, we 
just have to be looking at tens of thousands to hundreds of 
thousands of acres at a time. And to be able to have the NEPA 
in place so for the next ten years we can be able to get in 
there and do the work that needs to be done. Those are the 
things that are really going to make the difference.
    Senator Daines. Well, I truly appreciate your commitment to 
finding solutions that will improve forest health and also 
increase responsible timber harvest in Montana, and we really 
look forward to further discussions with you to achieve that 
goal.
    I want to ask Dr. Hood a question. Dr. Hood, first of all 
welcome to our nation's capitol. It is good to have another 
Montanan in the room, and it is great to have the perspective 
of someone who intimately knows the challenges facing our 
national forests in Montana.
    Your testimony focused largely on the role of fire and the 
role of fire management on increasing resistance of the bark 
beetle. I remember seeing this when I was a kid back in the 
70's, and now we are seeing it again and my children are seeing 
it now in Montana as well.
    I know your research was primarily focused in the Rocky 
Mountain region, but as you know Montana has millions of acres 
that are damaged by beetle kill. I am pleased that Congress 
recently gave the Forest Service new authorities to tackle this 
huge challenge in Montana. Based on your research how could 
increased management, including thinning and prudently removing 
dead timber, be used to improve the health of forests in 
Montana and reduce the risk of catastrophic wildfire?
    Dr. Hood. So in order to increase the health of our forests 
thinning should be a valid or a good management tool.
    My research also showed that having prescribed fires and 
low severity naturally occurring wildfires stimulates tree 
defenses. So having that combination of thinning and prescribed 
burning and then areas that we have treated to allow, 
naturally, allowing to consider allowing ignitions to burn, 
allow fires to burn, further perpetuates a healthy forest that 
could be resistant to bark beetles.
    I think we're always going to have some level of bark 
beetles. They're native insects to our forests, but having/
doing such treatments and promoting a patchy landscape can 
certainly help reduce the severity of those outbreaks.
    Senator Daines. Thanks, Doctor.
    The Chairman. Senator Franken?
    Senator Franken. Thank you, Madam Chair.
    Chief Tidwell, you and I have talked before about the role 
of climate change in all of this, and we have talked about the 
removal of hazardous fuel as we have been talking about today 
in different ways.
    One of the ways that I think that we could, possibly, and I 
want to ask anybody about this, to remove more hazardous fuel 
and be able to do it in a way that it costs less is by 
monetizing that biomass. By monetizing it, by using it, burning 
it, to create electricity and in combined heat and power which 
is something that the Chair and I have talked about. There is a 
lot of, obviously, areas in Alaska where this hazardous fuel, 
after all biomass is, as we can argue, is zero carbon 
footprint, we can solve a lot of things at the same time.
    There is obviously a lot of challenges to this in terms of 
remoteness and moving the stuff and using it, but we are 
talking about the wildland urban interface so there are, 
obviously, areas where this is near/in a populated area. What 
are some of the challenges standing in the way of more 
utilization of this tremendous resource, and this is for 
anyone, and what are your recommendations for overcoming these 
challenges or are these challenges?
    Mr. Tidwell. Well I'll start, Senator.
    You know, the challenge is to be able to demonstrate that 
it's economically viable. And so to be able to create these 
markets and we need to continue to make the investments to help 
people to do the business case analysis before they make the 
investment. We need to continue to use our authorities like the 
BCAP Authority where we can subsidize, actually, the 
transportation of this biomass material to a facility, and to 
be able to get more and more demonstration projects.
    At the same time we need to continue our research, not only 
to increase the efficiency of these systems, but also for 
things like with pellet production to be able to find a more 
efficient way to develop a pellet to increase the BTUs to 
increase the economics on it.
    I think we also need to just factor in the consequences if 
we don't. What's this cost avoidance? And if we could ever 
capture a way to really consider that, I think it would really 
help with the economics of this.
    If we think about by thinning out these forests the 
reduction of risk that's occurred and then by being able to use 
the material for either to use it into a wood product material 
or for energy consumption. If we could factor in the cost 
avoidance benefit on that, I think that the economics would 
sell itself on this.
    But we're going to have to continue with our research, 
continue with demonstration projects and to be able to also 
have a guaranteed supply of biomass. If you're going to make an 
investment, you're going to need to have the bank loan money. 
And so we've got to use more of our stewardship authority where 
we can show that's a ten year contract. And you can take that 
to the bank that without any question material is going to be 
there. So those are some of the things we need to continue to 
work on.
    Senator Franken. I agree with you, and I think there is a 
cost to not doing this. Are we doing the pilot projects? Are we 
exploring this enough? And do we need to do anything here in 
this Committee and in Congress to facilitate overcoming this 
challenge so we can do something, especially with energy 
storage and the more use of distributive energy? How we can 
make this a piece so that you will have the ability to remove 
hazardous fuel because it is monetized so we can do more of it 
and make it make sense? Anybody? Yes, Mr. Hallin.
    Mr. Hallin. Thank you for the question, Senator.
    At Salt River Project there is a biomass plant that we 
actually buy half of the power at that facility. One of the 
challenges, as Chief Tidwell mentioned, was the fact of 
ensuring that you have material at that plant so we don't need 
any undue delays to ensure that there is material available at 
the biomass plant. I think, second, there's another added value 
benefit. By going in and thinning these forests there's 
essentially an avoided release of carbon. When you have these 
catastrophic wildfires there's a major release of carbon into 
the air.
    Senator Franken. Sure.
    Mr. Hallin. So there's another benefit associated with 
utilizing.
    Senator Franken. Better to release it as energy that we use 
for electricity rather than just go up into the atmosphere.
    Mr. Hallin. Yes.
    Senator Franken. Yes.
    Okay, thank you, Madam Chair. I really want to continue. 
Every time you testify I bring this a little bit further, but I 
really want to keep exploring that and especially with the 
Chair.
    The Chairman. Thank you, Senator Franken.
    Senator Flake?
    Senator Flake. Thank you, Madam Chair.
    Thank you for the testimony. It is nice to have a couple of 
Arizonans here. Dr. Pyne and Bruce, it is good to see you. I 
know we have talked on a number of occasions, and I appreciate 
the testimony from those who know so much on this.
    I appreciate the work of Chief Tidwell. I think it is 
important to acknowledge some of the positive developments that 
we have seen recently related to forest management. Last month 
I think all of us were encouraged to learn that Phase One, 
4FRI, the record of decision was signed. That will allow us, 
the Chief talked about, large scale management rather than just 
a couple of thousand acres here or there, the paltry 3,000-plus 
acres that have so far been treated is emblematic of the pace 
that we have that is simply too slow. We have to do it on a 
much, much larger scale.
    Chief, you have noted, 58 million acres, are at high or 
very high risk. We have to move on a larger scale, so we all 
recognize achieving reduction in hazardous fuels is critical. 
And we have got to find a way to solve this fire borrowing 
issue. I like some of the proposals that have been put forward. 
Myself, Senator McCain, Senator Barrasso, and others have put 
forward some as well.
    By way of disrupting these activities, in terms of 
suppression, we are putting hazardous fuels reduction on hold. 
We are also putting communities and fire fighters at risk as we 
know all too well in Arizona. As Bruce talked about today, we 
are also increasingly creating challenges for maintaining a 
healthy watershed and for what that does to drinking water 
supplies.
    For all these reasons I am, obviously, supportive of 
efforts to resolve the fire borrowing issue by allowing a 
limited adjustment to statutory budget caps under specific 
circumstances or scenarios. For example, when the Forest 
Service and DOI exceed anticipatable or those that we can 
forecast, wildfire suppression costs. There is no doubt that 
wildfires are disastrous. They have a tremendous impact on 
communities that derive their livelihood from the national 
forest on water quality and on wildlife. But we cannot let the 
disastrous nature of wildfire make us lose sight of many of the 
costs of fighting fires and that we can't anticipate them.
    Let me be clear about that. Many of the costs of both 
preventing as well as fighting fires can be anticipated like 
municipal fire departments that budget for expected personnel 
and incident response costs. I believe that we can do much the 
same here. I would agree on the significance of the problems 
that wildfires present, but where there is some disagreement is 
dealing with these so called anticipatable costs.
    I would support efforts to recognize that in some years 
there will be large fires that drive the wildfire suppression 
costs well above those that were anticipated. In those years if 
the agencies have been appropriated 100 percent of the 
anticipated costs, I think that limited budget cap adjustments 
to allow the agencies to fight fire without borrowing from 
other sources would make sense.
    If they have been fully budgeted for what is easily 
anticipated as a realistic cost of suppression then that would 
apply. Frankly I would like to see sufficient funds on the 
front end. I think we all would like to see that put into 
suppression activities as well. Sound budgeting requires 
dealing with both preventable symptoms as well as resulting 
disasters.
    What I disagree with is the notion that we should simply 
move 30 percent of those anticipated costs off budget because 
it is convenient nor because it creates additional flexibility 
for increased spending under the statutory budget caps, paying 
for one disaster while furthering our current fiscal disaster 
does not make sense. We need to be realistic here about what we 
can do. We need to deal with the House as well, and be 
realistic about what we can budget for and what we can't.
    There is a solution to be found on the issue I believe that 
involves flexibility but only after 100 percent of those 
anticipatable suppression costs have been expended. Let's not 
confuse disasters with unanticipated costs. We need to plan for 
what is likely to occur to take steps necessary to prevent 
those disasters from occurring, and then use flexibility in 
those rare years where we go over those costs.
    I hope that my colleagues and the Administration will come 
together and find a solution, a long term solution, on this 
issue.
    I did not want to use all my time speaking here, but I 
believe I have. So thank you, Madam Chair.
    The Chairman. Senator Flake, I think this is a key part of 
what this Committee will be grappling with is exactly how we 
deal with this. I, too, hope we can find that agreement here, 
but we have to be realistic in terms of what we are facing and 
it has to be a solution that is more lasting than what we are 
dealing with right now which is, kind of, an interim stop gap 
and again, borrowing that hurts everybody. So know that we will 
be working with you on this.
    Senator Heinrich?
    Senator Heinrich. Thank you.
    Chief, at the beginning I think you apologized for bringing 
up fire borrowing. Once again, I think, most of us up here 
would say don't apologize and keep bringing it up until we find 
a workable way forward on this because it is, sort of, the 
elephant in the room here. We have to fix that piece of all of 
this one way or the other to be able to really scale these 
projects up to the kind of landscape levels that you were 
talking about.
    Mr. Hallin, I wanted to ask you if you would go into a 
little more detail about the kinds of projects that you are 
doing and the partnerships. I know in New Mexico we started to 
look at this, so we have a couple of different things going. 
One in the Santa Fe watershed, the Santa Fe water fund which 
uses contributions from water uses to match up with Forest 
Service funding and treat the watershed above Santa Fe. In 
addition the Rio Grande water fund is now doing a similar 
partnership on a much larger geographic area of the Rio 
Grande's watershed, south of Colorado in Northern New Mexico.
    If you would tell us a little bit more about those 
partnerships and how we might be able to learn from those 
things and scale them to other regions to get some of those 
benefits that we see when we are able to connect downstream 
water users effectively to the health of their watershed which 
may be hundreds and hundreds of miles away.
    Mr. Hallin. Thank you, Senator, for the question.
    We found very quickly that there was a definite disconnect 
with many of the businesses and water users in the valley. And 
when I'm talking about the valley, the Phoenix metropolitan 
area disconnect between a healthy forest and a healthy 
watershed. To begin getting the subject matter to a broader 
base group of individuals we decided to work together with some 
of our larger power customers and other customers that receive 
energy from SRP. Many of those organizations have green 
initiatives and other initiatives that if they're looking at 
spending money to improve, not only their products that they're 
delivering but also to improve their image.
    We sat down and realized that there are opportunities 
within our watershed to link this issue with end users, so we 
established this Northern Arizona Forest Fund together with the 
National Forest Foundation. Now the National Forest Foundation 
is congressionally authorized to use private funds as a 
501(c)(3) organization. We didn't want end users to think that 
there was something in this for the Salt River Project. It's 
actually something in it for the watershed.
    So this Northern Arizona Forest Fund, essentially, we 
identified projects and partnership with the Forest Service 
that are outside of these large, full scale restoration 
projects, but they're smaller projects that have a begin date 
and an end date so that when you invest your money, you know 
specifically what you're investing in as a result of that 
project.
    Senator Heinrich. I think that is really key. Connecting up 
these users who do not or have not in the past had an intuitive 
connection to where their water comes from. In Santa Fe's case, 
they can actually see their watershed. But for someone, say, in 
Albuquerque or in Phoenix, that watershed may be a long way 
away and connecting those things together is a pretty powerful 
tool.
    Chief, I want to just ask you a quick question with my 
remaining time. We heard a lot from Dr. Hood about the benefits 
of using these treatments together if not just having stove 
pipes around, mechanical treatment and then prescribed, low 
intensity fire but using them in combination having by far the 
best results. Are you able to do that as you scale up these 
landscape level fuel treatments? Are you able to plan both the 
prescribed and natural fire piece and the mechanical thinning 
piece together in concert?
    Mr. Tidwell. Yes. A lot of places it's necessary for us to 
have at least two entries into these areas. So the first year 
we'll come in and do the thinning.
    Senator Heinrich. Right.
    Mr. Tidwell. To reduce the total biomass and then follow it 
up, you know, with prescribed fire. And that is the right 
approach, especially in our dry forest types. And then once you 
have that thinning done, then you can continue to run that fire 
through there, either prescribed fire or with our natural fire.
    Senator Heinrich. Right.
    Mr. Tidwell. But often we need to do that mechanical 
treatment first, the timber harvest, to reduce the stand down 
to a level of biomass that we can then handle when we do have a 
fire.
    Senator Heinrich. And probably a more historical level, at 
least within the Ponderosa Pine dry forest of the West.
    Mr. Tidwell. Yes.
    Senator Heinrich. Thank you, Madam Chair.
    The Chairman. Thank you, Senator Heinrich.
    Senator Barrasso?
    Senator Barrasso. Thank you, Madam Chairman.
    Chief Tidwell, as a doctor I appreciate the adage that an 
ounce of prevention is worth a pound of cure. I am concerned 
with the ever increasing need to fire borrow money from fire 
prevention activities in the declining health of our national 
forests. The Administration seems intent on wanting more money 
for a fire cure while refusing to engage, I believe, in any 
serious land management fire prevention reforms. The 
Administration is set on maintaining the failed status quo 
policies and the culture of litigation surrounding forest 
management. As I said to Under Secretary Bonnie last month, the 
Forest Service has, I believe, lost its direction and its 
purpose. The Forest Service has become a bureaucracy of 
bureaucratic agency emphasizing internal processes over real 
results and improvements on the ground. It is my view that if 
we are going to increase fire prevention activities that 
Congress needs to direct and mandate results and outcomes.
    Does either the Administration proposal of S. 235, the 
Wildfire Disaster Funding Act, contain language guaranteeing 
that funds actually go to prevention activities such as 
hazardous fuels reduction and does either proposal contain the 
language providing legislative reforms aimed at streamlining 
active management and reducing litigation?
    Mr. Tidwell. No, it only eliminates the need to transfer 
and eliminates the stoppage of work in the fall.
    Senator Barrasso. I look at this and say we must prevent 
the practice of fire borrowing and prioritize funding for 
treatment activities to reduce future wildlife suppression 
costs. That is why I co-sponsored Senator McCain's bill, S. 
508, the FLAME Act amendments of 2015.
    I think we also have to streamline the way forest 
management activities are approved, meaningful policy reforms. 
S. 508 also includes innovative ideas like arbitration to get 
the Forest Service out of the courtroom back into the forests. 
We need to solve the challenges facing our national forests in 
a financially responsible way. Is the Forest Service willing to 
work with this Committee and the sponsors of the different 
bills to find solutions?
    Mr. Tidwell. Senator, we're, of course, very interested in 
working with the Committee to find those solutions. And as 
we've discussed in the past, this concept of arbitration, it's 
something that I'm interested in trying. I'd like to see us 
take on a pilot approach on to that, and part of that is I need 
to see that it's a better solution. It sounds good in concept, 
but I really think we need to, kind of, move into that, do some 
pilot approaches and just to see where that can take us. But I 
think it's one of the things we want to continue to work with 
you on.
    Senator Barrasso. Mr. Hallin, so often those who oppose 
active management of our forests claim hazardous fuel projects, 
timber production or thinning activities will destroy watershed 
health and wildlife habitat. Your testimony paints a different 
picture of what is threatening watersheds, wildlife and the 
sustainability of high quality drinking water.
    In your view what are the primary roadblocks to improving 
watershed health and wildlife habitat?
    Mr. Hallin. In our experience to date it's been partially 
the process associated with NEPA. If we can find opportunities 
to accelerate NEPA we see that as an opportunity to move more 
rapidly forward.
    I think secondly, too, there is a need, and we're seeing 
this begin to change when it comes to the attitude of the 
Forest Service that to be in the project management business, 
to manage those forests and to refocus their efforts on the 
reason why many of those forest reserves were created, 
essentially, to protect the water supply.
    Senator Barrasso. Mr. Eisele, thinking about your 
professional career, one of your responsibilities was to 
protect and improve watersheds. You described the National 
Environmental Policy Act, NEPA, as a weapon in the hands of a 
few. In your testimony you talk about the amount of time it is 
taking to complete the Santa Ana Watershed Environmental Impact 
Statement. I think you said it took over three years to 
undertake an action that is prudent and necessary for economic 
health and the protection of life and property is a 
misapplication of the intent of the law. How often do you see 
NEPA being used as a weapon or a barrier to actually improving 
watershed health?
    Mr. Eisele. I think it's common. It's a long process and 
the whole deal is to avoid litigation from people that are 
obstructionists, in my view.
    Senator Barrasso. So in your view if we do nothing, what 
are the consequences of, you know, what is happening with fires 
then?
    Mr. Eisele. Well to do nothing is catastrophic fires and 
continuing catastrophic fires and having unhealthy forests and 
all the other things we've talked about today.
    Senator Barrasso. Thank you.
    Thank you, Madam Chairman.
    The Chairman. Senator Hirono?
    Senator Hirono. Thank you, Madam Chair, and thank you all 
for testifying.
    I wanted to note for the record, Madam Chair, that Hawaii 
has a fire problem also. It is estimated that 0.5 percent of 
land in Hawaii burns each year, a percentage that is equal to 
or higher than what is experienced in Western states. Given 
that Hawaii's native ecosystems are not fire adapted, we are 
losing an alarming amount of native flora and fauna to 
wildfires often to be replaced by non-native grasses and other 
invasive species that then fuel future fires. In fact, the non-
native grasses and shrub lands cover some 24 percent of 
Hawaii's land creating landscapes that are flammable and highly 
susceptible to wildfires, so clearly this issue touches every 
single state.
    Chief Tidwell, you talked about the Healthy Forest 
Restoration Act. It sounded as though you have thought about 
making some or asking for some amendments to this law that 
would enable the Forest Service to, as you put it, take a total 
landscape approach, not just looking at thousands of acres, but 
to be able to look at tens of thousands of acres. Do you have 
some suggestive language that would provide more flexibility 
for the Forest Service to deal with this problem?
    Mr. Tidwell. Well Senator, with the passage of the Farm 
bill and thank you, again, for the 2014 Farm bill, it did 
expand the use of the Healthy Forest Restoration Act to deal 
with these insect and disease. So if you combine that authority 
plus what we have with the original Healthy Forest Restoration 
Act, it does really expand on our ability to use that more 
efficient NEPA process on much larger landscapes. One thing 
that may be helpful is if we just had one authority instead of 
the two so that would be a little, I think, a little easier for 
folks or communities to understand.
    The thing I want to stress is that the reason we are able 
to get more and more work done each year is the level of 
support we have through these collaborative efforts. And it's 
been mentioned with the panelists here, we need to be looking 
at not just a hazardous fuel issue, but also the total 
restoration projects, the work that needs to be done to restore 
the overall watersheds, reduce the hazardous fuels and create 
this resilient system.
    So it's essential that we always recognize that need to be 
able to have the engagement with our communities, but being 
able to really reduce the number of alternatives that we need 
to address definitely speeds up the process and it keeps 
everybody at the table and allows us to get the work done 
sooner.
    Senator Hirono. So are you saying that with the combination 
of the Farm bill provisions and what you have under the Healthy 
Forest Restoration Act that you have enough authority but it 
would be clearer if we could put it all in one----
    Mr. Tidwell. It's one way just to simplify it to make it 
easier for, you know, the public to understand and that we have 
both of these authorities and now we can use it on a larger 
landscape. So it's one thing that we're thinking about if 
that's something that would really help us. But we've had some 
discussion on it.
    Senator Hirono. You talked about the need for collaborating 
with communities across the board. Do you have a state-by-state 
program or plan that would enable communities and fire 
departments and the state and counties to work collaboratively 
with the Forest Service to prevent these wildfires?
    Mr. Tidwell. We----
    Senator Hirono. We have something for Hawaii.
    Mr. Tidwell. Yes. In the past we've done it more community-
by-community with communities that developed a Community 
Wildfire Protection Plan. Now with the cohesive strategy that 
we've just put out, it allows us to take a much larger 
landscape approach. So it recognizes not only do we need to 
have fire adapted natural communities so we have these 
restored, resilient forests, but we also need to have fire 
adapted human communities so that we're taking the actions 
around people's homes and on private land so that we're working 
together to reduce this threat. These two efforts along with 
the need to keep the suppression resources we have is really 
going to be, I think, very helpful for us to be able to move 
forward and address this problem that goes way beyond just the 
Federal land.
    Senator Hirono. Chief, I am sorry I am running out of time, 
but you said that you work community-by-community? Are you 
working with any particular communities in Hawaii? You can get 
back to me.
    Mr. Tidwell. I'll have to get back to you on it.
    Senator Hirono. Thank you.
    Mr. Tidwell. But the point that you raised about the 
invasives that you're dealing with in Hawaii, I mean, that's 
what we're doing with so many states. It's what comes in after 
these fires, and so I appreciate you bringing that forward that 
you also, your state also deals with this issue. We'll get back 
to you with the list of communities we're working with.
    Senator Hirono. We are basically the invasive species 
capital of the country. [Laughter.]
    Mr. Tidwell. Yes.
    Senator Hirono. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Hirono.
    Senator Gardner?
    Senator Gardner. Thank you, Madam Chair, and thank you to 
Chief Tidwell and the other witnesses for being here today. It 
is a timely hearing we are having.
    On Saturday Senator Bennet and I in Colorado are hosting a 
fire summit in Colorado Springs which is, of course, the site 
to the Black Forest fire a couple of years ago, the Waldo 
Canyon Fire and a number of other devastating events have 
occurred throughout the state. Over two dozen wildfire experts, 
community experts and mitigation experts will be joining us. I 
will ask you about that in a little bit.
    I wanted to follow up on some of your testimony. Where you 
talked about progress in retrofitting the HC31H aircraft that 
the service acquired from the U.S. Coast Guard. How many of 
these aircrafts will be ready to perform wildfire suppression 
missions this summer?
    Mr. Tidwell. Senator, we'll have one of those aircraft in 
the latter part of the fire season that we're going to be 
putting the MAFFs tank in it to be able to start to use that 
this year. And then by the end of the year we expect to receive 
the second one. It will be 2019 before we'll have probably all 
seven of them with the tanks built into the planes.
    Senator Gardner. The timeline for completing it, that gives 
the timeline for completing the wing box and the tank work that 
is required to bring them into service is 2019?
    Mr. Tidwell. Yes, we'll have all seven of them in operation 
by then.
    Senator Gardner. Okay, very good, thank you.
    Do you have an update on the Forest Service ground water 
rule? What is the status of that right now?
    Mr. Tidwell. We have withdrawn our initial proposed rule to 
allow us more time to continue to work with the states and the 
stakeholders to really address this issue. Our concern about 
making sure that we're not impacting ground water.
    I'm working with our regional foresters to ensure that as 
we have to address these issues, especially on some large mines 
and oil and gas leases, is that the lack of having a 
systematic, consistent process doesn't become a barrier from 
being able to move forward and address those projects. We've 
withdrawn for this time and we're going to continue to work 
with the states to be able to, sometime in the future, to have 
a solution to this issue so that we do not become the barrier 
to implementing some of these projects.
    Senator Gardner. One of the things I think you heard is a 
common theme for many members of the Committee is just 
continuing to talk about the litigation and the parent 
paralysis that sometimes that presents in terms of making sure 
that we are managing our forests in an appropriate way so we 
can avoid or prevent the catastrophic wildfire from happening 
in the first place.
    If there was one particular avenue of litigation or perhaps 
a piece of legislation that you could draft yourself to avoid 
some of the litigation that is stopping or holding up some of 
the forest management activities that are so needed around the 
country, what would it be?
    Mr. Tidwell. I would first start with looking at ways to 
incentivize collaboration. As I look at the success that we're 
having, today verses earlier in my career, that is the one 
thing that's making the difference, the level of support and 
understanding that we have to be able to do these projects. So 
any way we can continue to, you know, encourage that. I also 
think this concept of arbitration is something that I'm 
interested in exploring in a pilot fashion to see if that might 
be a better way.
    The other thing is also when we talk about our using the 
Farm bill authorities to be able to reduce the amount of 
analysis we have to do instead of looking at sometimes five and 
six alternatives, we look at two. That also allows us to be 
able to ensure that we're addressing the issues around those 
alternatives verses having to look at a much broader piece of 
work. I think that will also help us to be more efficient and 
more effective. But those are the things that I've been 
thinking of.
    Senator Gardner. Thank you.
    Talking about some of the FEMA and the disaster 
declarations, are you aware of some of the challenges we have 
after a fire when it comes to the FEMA declarations themselves? 
Has the Forest Service weighed in on any proposal to perhaps 
change our disaster declarations?
    Mr. Tidwell. Well, we work very closely with the states 
during the fire on those to be able to make sure that they're 
getting, send those in as quickly as they possibly can and to 
be able to provide our interpretation.
    Senator Gardner. I guess what I am talking about is long 
after the fire is out we have the ongoing flooding issues, we 
have landslide issues, hydrophobic soil conditions, and FEMA 
can sometimes leave the scene even though that creates 
secondary emergencies that then have to receive their own 
designation. Has the Forest Service weighed in on perhaps 
changing our national disaster declaration process so we can 
avoid some of the regulatory hurdles that are naturally 
occurring after a fire?
    Mr. Tidwell. You know, we have not engaged on that, but we 
definitely recognize the problem. I think it's another area 
that we need to work together to be able to find a way to be 
able to recognize that, yes, there's the fire and then there's 
the recovery afterwards. And often that's more detrimental, 
more impacting than actually the fire itself, as you've seen, 
you know, in your state.
    I think it's an opportunity where, I think, we can look at 
taking a different approach so that we can do a better job to 
work with our communities to be able to have a timely response 
that goes way beyond what we're currently doing just with our 
area emergency rehab work.
    Senator Gardner. I was on the Western Slope this past 
weekend and have just one final question. I was talking to an 
individual who manages a narrow gauge railroad. He has his own 
fire fighting fleet because, if there is a fire that is started 
by the railroad that creates, obviously, liability and 
substantial damage to his community.
    As a result of some conflict between Forest Service 
regulations he is sometimes limited in where he can send that 
fire fighting fleet out to actually put a fire out before it 
becomes a major fire and there are some challenges with a 
helicopter that they have contracted to go in. I would love to 
work with you in terms of trying to find out a way that we 
could partner with the Forest Service and this fire fighting 
fleet.
    Both the Forest Service and this individual have the same 
goal in mind and that is to prevent the forest fire from 
happening in the first place, and perhaps we can make sure that 
we can get the regulations into place where we are able to put 
the fire out without finger pointing.
    Mr. Tidwell. We'd be glad to work with you and the 
individual on that. I mean, that's the sort of thing that 
through, especially working with the state foresters that we 
have the authorities to be able to do that. It may just be 
making sure that we've got everything in place, and then also 
we always share--have the concern with safety.
    Senator Gardner. Right.
    Mr. Tidwell. To make sure that whoever is responding to the 
fire has the equipment, has the knowledge and the skills so 
they can do it safely.
    Senator Gardner. Right, thank you.
    The Chairman. Senator Risch?
    Senator Risch. Thank you, Madam Chairman.
    Chief Tidwell, you and I spoke just very briefly before the 
hearing about some correspondence that your office received 
from the State Land Board in Idaho. As you lived in Idaho you 
are well familiar with the State Land Board, and they oversee 
the state forest holdings and other holdings. They are 
concerned, as you and I have discussed and as you have 
discussed with many Members of Congress, and really focused on 
some optimism, hopefully around the provisions in the Farm 
bill, that are going to give us the opportunity to do some of 
these treatment projects that we have wanted to do.
    I do not think I need to tell you, but there is a lot of 
frustration out there that it is not moving as fast as we would 
like. I think maybe people had expectations raised beyond what 
is reality when you are dealing with the Federal Government, 
unfortunately, but I would urge you to continue. I think it is 
still untested. We are making some progress on it, but I would 
sure urge you that we continue to put one foot in front of the 
other and try to mature this process as rapidly as we can.
    Mr. Tidwell. Senator, I agree with that. We will be glad to 
provide the Land Board out in Idaho and also to you and your 
staff, just a list of all the projects we have planned in Idaho 
using the Farm bill authorities.
    Senator Risch. Okay.
    [The information referred to follows:]
    All projects included in the attached list are occurring in 
the designated insect and disease areas (aka priority 
landscapes) and are using or have potential to use Farm Bill 
authorities. Projects that show ``pre-Farm Bill'' in the NEPA 
Process column were already in progress or completed prior to 
the 2014 Farm Bill and did not use Farm Bill authorities but 
are occurring in the priority landscapes.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Mr. Tidwell. And then later this summer we'll finish the 
Paperwork Reduction Act requirements so we can move forward 
with the Good Neighbor Authority.
    We have taken some additional time to work with the state 
foresters to produce templates about how to use that. And 
because of taking out additional time and actually doing some 
scenarios with them, we call them Sand Table exercises, where 
you'd actually go through a process to see how would this 
actually play out to be able to work together to implement a 
project. Because of that we've made significant changes to 
template the feedback I'm getting from the state foresters that 
they feel that's going to be a much better tool. So taking a 
little more time on it is going to, I think, really help us in 
the long run.
    Senator Risch. I have spoken with Mr. Schultz, who I think 
you know, who heads our State Land Board. He is very anxious to 
see this move forward, and he is in agreement that this has 
some real potential if it is moved expeditiously and 
appropriately. I appreciate your efforts in that regard.
    Mr. Eisele, I was surprised to hear you say that you were 
short on the ground of overhead photography in a fire. When I 
was Governor we had a summer that there was a lot of fire on 
and every morning before it got light I had in hand a map of 
what the fire had done from satellite imagery and some other 
overhead imagery of what the fire had done the day before. I am 
surprised to hear you say that that is not available to you in 
San Diego. I am assuming you have satellite imagery in San 
Diego like we do in Idaho? What can you tell me about that?
    Mr. Eisele. So the process you're referring to is the 
NIROPS program where the Forest Service airplane flies an 
infrared plane over all the fires burning in, basically, the 
Western United States. Then the fire teams have that 
information before six o'clock in the morning, and I do know 
where the fire is then. The issue is that fires change during 
the day. We now know where the fire was last night and we know 
where the fire was the night before. We don't have real time 
information.
    Now the Forest Service research does have an airplane with 
a fire mapper program that can fly at above the altitude of the 
air tankers and all of the helicopters and now can continuously 
map that fire and send real time data down, but it's a research 
program.
    Senator Risch. So you are looking for hour-by-hour as 
opposed to what happened the day before?
    Mr. Eisele. Certainly or at least more than once every 24 
hours.
    Senator Risch. Sure, yes, that clearly makes sense. In 
today's world with the technology we have it would seem to me 
that that would not be that difficult to do. Predictability 
obviously is important, and with weather changing and what have 
you, sometimes it is relatively predictable and sometimes not.
    Thank you very much, I appreciate it.
    Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Risch.
    Senator Hoeven?
    Senator Hoeven. Thank you, Madam Chairman.
    Chief, it is good to see you again. Thanks for your recent 
visit to North Dakota. I would just like to follow up on that.
    My first question goes to the environmental assessment and 
the allotment plan for the grazers. In both cases they wanted 
changes made proactively. Can you give me a status report on 
how you are coming with that?
    Mr. Tidwell. Senator, the follow up with that meeting our 
folks, our staff, are going to continue, we're going to 
continue to work with the Grazing Association members to be 
able to address their concerns. I think I want to thank you for 
hosting that meeting, because I also think it helped to clarify 
a few issues to help us to be able to move forward and address 
their concerns.
    Senator Hoeven. So you feel you will be, working with your 
state director, be able to make adjustments that should work 
for the grazing associations and the ranchers?
    Mr. Tidwell. Yes, I was optimistic after listening, you 
know, from the work there done at the university that I think 
we provide a slightly different approach, one that I think 
would work for both the ranchers and also address our needs.
    So that was the thing I left with that meeting is that a 
little different approach that was being proposed there that 
could help, I think, really once and for all, kind of, settled 
this one issue that we've had there.
    Senator Hoeven. I appreciate that.
    The other thing I would like to emphasize is working with 
NDSU range scientists, particularly Dr. Souvik. I think that 
not only are they very knowledgeable and they focus on the 
science, but they also have a lot of credibility with the 
ranchers and their area. So I would emphasize that you work 
closely with NDSU and their range scientists, particularly on 
the three and a half inch visual obstruction reading. I think 
they can really help get to a solution that the ranchers feel 
is common sense and workable.
    Mr. Tidwell. Yes, and that's the issue that the university 
and the doctor, he has come up with a different approach to 
really determine which areas actually have the capability to 
produce that stubble height. I think from the discussions we 
had there at your meeting and a little bit of follow up 
discussion, I left there being more optimistic than I've been 
for a while that hey, this is a better approach that the 
university is coming up with for us to be able to answer that 
question about which areas are capable or not. And it seems 
like that's really been the issue. The ranchers can manage 
their livestock to be able to produce the stubble height we'd 
need. We just need to be able to understand which areas are 
actually capable and which ones are not.
    Senator Hoeven. Right.
    Mr. Tidwell. And I think once we can come to an agreement 
on that I'm optimistic that we can put this issue behind us and 
move forward.
    Senator Hoeven. In order to continue the Dakota Prairie 
Grasslands demonstration project, does that require legislation 
or is that something you can do without legislation?
    Mr. Tidwell. We can continue to work under that 
demonstration project. At this point we don't need any 
additional legislation.
    Senator Hoeven. Okay, It is important that we continue it.
    Let me switch to the fire piece. I know you are getting a 
lot of question on fires, but it looks like we are drier this 
year. We certainly are drier this year starting out than we 
have been the last several, particularly in the West.
    So address for a minute your approach to the grasslands in 
terms of steps you are taking to be prepared for fires this 
season. Obviously we are very focused on the forests, but the 
grasslands have fire issues as well.
    Mr. Tidwell. Yes, well the grasslands are part of the 
national forest so it's for when I talk about the national 
forest I'm always including the grasslands.
    What we're doing there in the state is what we're doing 
across the country is to be working with our cooperators, with 
the volunteer fire departments, so that we're ready to go when 
the fire season which in your case has already started. If I 
recall the day I was up there just a couple days before we'd 
already had several fires in your state that people were 
explaining to me they just never see this level fire behavior 
occurring so early in the year.
    Those are the things to make sure that we have the 
resources we need, that people are ready and that if there's 
anything that we need to address that we can take care of ahead 
of time.
    In your state, like many states, it's those volunteer fire 
departments that are a big part of our initial attack 
resources. They're responsible for being able to get there 
quickly and be able to suppress so many of the fires. And so 
it's like in your state and the rest of the country, it takes 
all of us working together, the Federal Government, the State, 
counties and local fire to be able to deal with this.
    Senator Hoeven. Then address the controlled burn issue for 
a moment too. Obviously I am particularly sensitive to this 
issue because it is dry, and we really want you working with 
the people on the ground, not just the land owners, but 
obviously volunteer fire departments and everyone else. So 
let's touch on controlled burn for just a minute. Are you going 
to stay away from it this year because it is drier? What is 
your plan?
    Mr. Tidwell. Well, definitely. When we have those 
conditions that we have up there we often are not going to get 
in prescription to begin with. But we're only going to be doing 
prescribed burns where we have, you know, kind of the agreement 
and the support from the grazing associations where in part of 
your state it's a little bit wetter. That association is very 
supportive of more fire. Other parts that are drier we don't 
have that, at least that agreement at this point. So we're not 
going to be using a lot of prescribed fire in those areas until 
we have the right conditions and the level of agreement so that 
everyone's together on what's the value of this and make sure 
that we're factoring in the risk to avoid the situation we had 
a couple years ago.
    Senator Hoeven. Thanks again, Chief. I appreciate it.
    The Chairman. Thank you, Senator Hoeven.
    We were discussing about how we get the accurate imaging of 
the fire. During the Funny River fire that we had last year on 
the peninsula the state was able to use drones to determine 
where that hot spot was and found it very effective, because it 
was one of those situations where the smoke was so thick you 
did not know what was happening and there was no real way to 
pinpoint it at that time. So the technologies that are out 
there, I think, that can clearly help to make a difference as 
we try to battle these fires.
    Mr. Eisele, you mentioned the significance of having an app 
where people know who is where and from a safety perspective, 
making sure that those who are fighting our fires have some 
tools that, perhaps, we have not had in the past.
    We have not really had much discussion this morning about 
the wildland urban interface and the fact that 50 to 95 percent 
of Forest Service's fire suppression costs are incurred 
protecting private property, and we all know about the Fire 
Wise program. We certainly see the benefits of when a homeowner 
takes very proactive steps to ensure a level of safety through 
clearing around their areas.
    I remember flying over the Kenai Peninsula some years ago 
after horrible fires, and you would see just nothing but 
charred blackness and then there would be this little island of 
green where they had created defensible space. Just because of 
the education that goes on with the Fire Wise program I think 
we recognize that we can reduce the cost of suppression if the 
homeowners as well take an active role in management.
    Chief, can you speak to what we are doing to encourage that 
end of it? Again, it is preventive, but are we using sufficient 
resources to allow for an understanding, a training and an 
education for folks so that they too are making a difference?
    Mr. Tidwell. Madam Chair, we are making, I think, even more 
and more progress each year. Especially with our cohesive 
strategy that we put together working very closely with the 
states, the counties, the boroughs and you know, with cities to 
come up with an understanding of really what's it's going to 
take and then the tools to be able to create that level of 
awareness, especially with the private land owners. And then to 
be able to set up demonstration projects around the country to 
be able to show the difference that we're making. We're also 
prioritizing some of our fuels money so that it's going to 
those areas where the state, the private land owner is doing 
the work on their land and so that we can make a more effective 
treatment area. So those are the things that we're continuing 
to do, and I think it encourages more people to maybe do the 
right thing with their private land than to have those 
demonstration projects where they can see the difference that 
it makes and what it really takes, because some folks think 
they have to like completely clear all of their land of all 
trees and brush and we don't need to do anything to that level. 
Those demonstration projects are really helping the private 
land owners to be able to see, okay, this is really what I need 
to do.
    We're working very closely with our state foresters through 
our state fire assistance programs to help provide some funding 
to be able to do this work not only on the national forests, 
but also on the private land together. Through this cohesive 
strategy I do believe that it's going to really help us to move 
forward in a bigger way than we have in the past. I've never 
seen this level of support and understanding from our partners, 
from the states and the counties, the boroughs and the cities 
that I have based on this cohesive strategy.
    The Chairman. If you are looking for demonstration projects 
I would just suggest you put people in an airplane and fly over 
some of these areas where you see the blue tarps that arc.
    Mr. Tidwell. Yes.
    The Chairman. Where you still have surviving structures, 
again, amidst some pretty tough devastation here.
    I was up in Iqaluit, Nunavut territory for the Arctic 
Ministerial meeting with Secretary Kerry, and one of the 
frameworks that was discussed there at the Arctic Council was a 
focus on an effort to reduce black carbon emissions in the 
Arctic. The Council's action is probably more focused on 
manmade black carbon, but the reality is that the largest 
contributor to black carbon is really the wildfire. I would 
just ask if the Forest Service is going to have any role at all 
in this black carbon initiative with the Council? If you do not 
know you can get back to me or submit your answer for the 
record, but I do want to put that on your radar screen because 
it is something that, I think, we have not really talked about. 
We are talking about the manmade, but, I think, again, the 
issue of wildfire is where we see the vast majority of that 
black carbon.
    Mr. Tidwell. Madam Chair, I'll follow up, but I do know 
that we have a couple of our research scientists that are 
working with that group. The point that you bring up about the 
carbon that's released from these fires, we can make a 
difference if we can reduce the level of severity and the 
catastrophic size of some of these fires as far as the total 
release verses doing it through more of a prescribed fire and a 
much lower severity.
    So those are the things that, as we really look at this 
problem, we need to be factoring in all of the benefits that 
come in from having an approach that can restore these forests 
and at the same time take suppression where we need to take 
suppression to protect our communities.
    The Chairman. One last question, very quickly.
    In the Fire Potential Outlook Alaska's highest risk of 
significant wildfire potential is in the May time period, and 
it is my understanding that we are seeing fire season earlier 
and earlier. I mentioned to you, just my own personal view, 
from flying into the interior this weekend. Do we track that so 
that we can actually identify that the fire season has started 
in places like Alaska even earlier than traditionally seen?
    Mr. Tidwell. Yes, we track the changing conditions to make 
sure that if we need to bring on resources earlier than what we 
normally would do that we bring those, that we have those 
resources available.
    The Chairman. That was specifically what I was going to ask 
because you basically budget for this. You have got your assets 
that are on standby, but if in fact we are seeing our fires 
start earlier do we have them co-located in areas that we can 
be responsive or do we wait until the calendar says fire season 
begins in Alaska?
    Mr. Tidwell. We do not wait.
    The Chairman. Okay.
    Mr. Tidwell. We----
    The Chairman. That is what I need to know.
    Mr. Tidwell. We reposition our resources where they're 
needed.
    The Chairman. Okay.
    Senator Cantwell?
    Senator Cantwell. Thank you, Madam Chair.
    Chief Tidwell, I wanted to go back to you on the question 
that I asked before. I did not think we got a chance to get to 
that, and that was the amount of funding that is available 
versus the amount of need that we have on the wildland urban 
interface. Where do you think we need to go in terms of getting 
resources and what do you think the advent of a biomass program 
might be able to do to help?
    Mr. Tidwell. Well first, with the increase in funding that 
we received this year for hazardous fuels and where the 
majority of our work is in the wildland urban interface, that 
is going to allow us to be able to expand that program and be 
able to treat more acres. For instance, we're having 2.5 
million acres as our target for this year, and out of that 2.1 
of that is going to actually occur in these highest priority 
areas. The second part of it is with finding more use for the 
biomass and whether it's through an integrated wood product 
that can expand markets or to be able to use it for energy 
conversion and substitute that for other energy sources. I 
think those are the things we have to continue to work on.
    I think where we've been able to use the BCAP authorities 
that subsidize the transportation of biomass, it's allowed for 
new facilities to come online to be able to provide some 
additional support for those new businesses. Those are the 
things we just need to continue to be able to work on, and then 
the program that we have to help folks be able to receive 
grants to do the economic analysis, to put a business case 
together, so that they're in a much better place before they 
make the decision to make that investment.
    The last point that's been brought up a couple times is the 
certainty. It's essential that we provide some level of 
certainty, especially for these new operations, so that that's 
the one thing they don't have to worry about that there is 
going to be x amount of biomass that's guaranteed to be 
available for at least a ten year period.
    Senator Cantwell. Why do I think of the set aside issue 
when you say that? The notion that the Forest Service needs to 
adhere to the set aside for small businesses?
    Mr. Tidwell. Well it's one of the things, with our 
stewardship contracting, it's one of the issues that once, 
thank you again for making that permanent for us, but we're 
working with the Small Business Administration to be able to go 
through rulemaking to address that issue.
    Senator Cantwell. Okay. We definitely want to see us make 
progress. And if you're saying that part of this is getting, 
you know, a flow of the biomass to create these businesses.
    Of the, you said $300 million, what do you think that 
represents as far as addressing need? Do you think there is a 
number that is double or triple that that you could easily do 
if you had the resources?
    Mr. Tidwell. Well I would respond with what we requested in 
our budget for FY'16 to maintain the increase in hazardous 
fuels that we received last year to be able to expand the 
collaborative forest landscape restoration work, to be able to 
get more funding for our basic forest restoration work and then 
also some additional funding to work with the states to be able 
to expand the work that they're doing.
    Those are the things that we asked for in our budget, along 
with recognizing that our ten year average for fire suppression 
went up $115 million again just this last year. So when you 
total those numbers together, our budget request plus what 
we're asking, needing for fire suppression and ten year 
average, it's, I think it actually comes out to a little over 
$300 million.
    Senator Cantwell. When you say what you've said today in 
your testimony and questions, it sounds to me more, I am not 
saying status quo, but it is sounding more like we are on the 
right trajectory. Then when I see this research report from 
your organization it says something different. So where are you 
on that research report because it is within the Forest 
Service?
    Mr. Tidwell. Yeah, I just was reading that at the start of 
the hearing. You know, the research I think, identifies really 
what we're focused on and the shifts that we've made over the 
last few years to recognize the need for us to manage fire, not 
only the natural fire in the back country, but we'll have our 
fires where we're taking very active suppression on part of 
that fire and then at the same time allowing another portion of 
that fire to be able to burn, to be able to reduce fuels.
    A good example of this was the Rim Fire a couple years ago 
in California. Aggressive suppression to keep the fire out of 
the communities, but at the same time we allowed that fire to 
burn up until Yosemite National Park where the park had been 
doing some prescribed burning. So those are the things that we 
need to continue to do. When I look at that research paper, for 
me, it describes really where we're at, but we do need to 
expand. We're going to need to be able to use more natural fire 
to manage more natural fire, we need to increase our prescribed 
fire, and we also need to increase our mechanical treatments, 
especially in those places that we need to do that work before 
we can put fire into the landscape.
    The other challenge we have, and it's pointed out in this 
paper, is for our communities to really understand what needs 
to occur. When we're managing fire in the back country there's 
still a lot of concern. And at times I think some of our 
communities, that they're scared or worried about where that 
fire is going to go verses if they know that they see the 
planes flying and the resources and stuff. So we need to do a 
better job to work with our communities so that they understand 
the actions we're going to take and that they recognize the 
work that we've done to reduce the threat to their communities 
but to build more support for it.
    The other thing, and it hasn't been mentioned yet at the 
hearing, we're going to have to work together with the states 
to be able to address smoke management. There are times when 
we're going to have to, I think, put up with a little more 
smoke from a managed fire, a low severity fire, to reduce those 
catastrophic situations.
    It's something I think we're going to have to work together 
to be able to provide that flexibility so that there is less 
impact, not only to our communities but I think about the loss 
of tourism, the loss of economic activity when we have these 
large fires. You saw it in your own state with the Carlton that 
those communities, there was nobody going up there to go 
fishing or float the rivers, etcetera, when that fire was going 
on.
    That's another reason why we need to increase our pace and 
scale with this work, and I think an incremental approach like 
what we're taking with our FY'16 budget is the right way so we 
can continue to ramp this up.
    I know I'm way over time, but I just have to mention, like 
the Salt River. The partnerships that are coming together from 
communities or water companies that recognize that it's a good 
investment to be able to change the conditions so that they 
don't have to deal with the aftermath of a more catastrophic 
fire.We're seeing that spring up across the country where 
people are willing. Communities, water companies, and water 
boards are willing to make that investment to be able to change 
the conditions on our landscape.
    Senator Cantwell. Thank you.
    Dr. Pyne, I see you listening intently to every word that 
Chief Tidwell was saying. Do you have any comments about that?
    Dr. Pyne. No, I'm currently admiring his mastery of the 
venue and his material.
    I think the only comment I would add to some of the 
observations you made is on the wildland urban interface issue. 
We've tended to define that as a wildland problem that affects 
communities, but you can pick up the other end of that stick. 
Isn't this an urban fire problem with wildland landscaping? If 
you think of it that way then we know how to keep houses from 
burning. We've solved that problem before. So in some ways it's 
a definitional issue. If we start thinking about these as 
little fragments of cities then we start applying the same 
solutions we've had, and we can solve it technically.
    Senator Cantwell. Even in these extreme situations like 
Carlton because it was such a blow up, because of weather and 
wind and everything?
    Dr. Pyne. Yes, I think you can. We know how to harden those 
communities. We know how to solve some of that. Under truly 
extreme conditions you're going to have some damage. You're not 
going to stop everything, but think of it as a kind of 
hurricane event. We know how to prepare and take action. So in 
some ways, I think, we're mis-defining it.
    I'm struck how often with aerial photos of these 
communities that have been burned the houses are reduced to the 
concrete slab, but you still see so many trees around it, 
surviving. And you're struck by this is a house, an urban fire 
problem with funding landscaping not just a wildland fire 
problem. So we need to do both. But I would put more resources, 
thinking about the other half of that equation.
    Senator Cantwell. So you are definitely describing Pateros 
because those houses, in a matter of minutes, burned down to 
the foundation.
    Dr. Pyne. Yes.
    Senator Cantwell. But why were you saying that there are 
trees?
    Dr. Pyne. Well, I'm not familiar enough with the Carlton 
complex. I know there was a lot of disperse stuff. But I'm 
thinking of, we had comments from Colorado earlier, the Black 
Forest fire, Waldo Canyon, some of these others. Looking at the 
overviews of these and repeatedly that's what you see in forest 
situations, communities. The fire is going house to house. It's 
going along the ground of these, and you're wondering why are 
some of these communities burning? That's a house problem. 
That's an urban fire problem or an ex-urban fire problem, not 
just a wildland fire problem.
    Senator Cantwell. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Cantwell.
    Chief, I am not going to go back to Fairbanks and tell them 
that they have got to suffer through more smoke. As you know, 
we have just some extraordinary summers where there is no 
soccer that is being played, there is a health alert every 
morning, and some mornings it is so dense you literally need to 
have your headlights on during the summertime. It is an issue 
that we deal with. Fairbanks has some of the poorest air 
quality during the winter because of inversion issues, but 
during the summer it is because of the wildland fires that are 
all around. It is something that we struggle with most 
certainly.
    I listened to some of what you said in terms of the average 
that we spent last year. I think you said about $150 million 
more than it has been on average over the last ten years. I 
have seen something that says almost $200 million more spent on 
average. But what we have seen is that there have been less 
than half the number of fires, less than half the number of 
acres burned and less than half the number of houses burned.
    So again it speaks to the issue that we have here where we 
are experiencing skyrocketing suppression costs. I think we get 
to a point where we cannot continue to throw everything that we 
have at every fire whether it is effective or not. You just 
cannot take a blank check approach to fighting the fires. It is 
not sustainable, economically or perhaps ecologically, so it is 
something that we must look at.
    I think we need to strategically address the fuel 
accumulation problem in our forests and integrate our fuels 
management objectives into the wildfire management operations. 
I do not think that we can have fire management divorced from 
land management, and I think we heard that from several of our 
witnesses here today.
    Clearly, we have got a great deal that we have to do. It 
sounds weak to say it, but I hope, for our sake, from a budget 
perspective that it is not going to be a bad fire season. I 
hope that for the sake of those who have properties or perhaps 
concerns about their own safety that it is not a bad fire 
season. I certainly hope for the men and women who, in the face 
of pretty serious danger, are willing to go out there and 
battle these forest fires. I hope for them it is not a bad fire 
season.
    But that is not a good policy to hope that we get lucky 
that we do not have a bad fire season. I think we are seeing 
things set up for a tough year this year with the drought in 
the West, low snow pack everywhere it seems except here in the 
East. So we have some real issues to deal with.
    I think, again, you have got a real commitment to figure 
out how we can deal with this fire borrowing because we cannot 
get to the fuels treatments. We cannot get to the important 
aspects of what we can do on the preventive side if we do not 
have dollars in the budget, if they have been spent on these 
sky high suppression costs. So we have some work to do, and I 
think you have the commitment from many around this dais to 
work with you to find some solutions.
    To those of you who traveled far to be here with us this 
morning, you may not have gotten the bulk of the questions, but 
know that your testimony and your input is greatly appreciated 
as we look to resolve these issues that have considerable 
impact, particularly to those of us in the West.
    With that, we stand adjourned and thank you.
    [Whereupon, at 12:29 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                  [all]
</pre></body></html>
